  Office of Inspector General
      Audit Report


MORE RIGOROUS OVERSIGHT IS NEEDED
TO ENSURE VENICE MUNICIPAL AIRPORT
 LAND SALES AND LEASES ARE USED
          APPROPRIATELY
       Federal Aviation Administration

        Report Number: AV-2011-180
       Date Issued: September 29, 2011
           U.S. Department of
                                                  Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: More Rigorous Oversight Is Needed To               Date:    September 29, 2011
           Ensure Venice Municipal Airport Land Sales and
           Leases Are Used Appropriately
           Federal Aviation Administration
           Report Number AV-2011-180

  From:    Jeffrey B. Guzzetti                                     Reply to
                                                                   Attn. of:   JA-10
           Assistant Inspector General
             for Aviation and Special Program Audits

    To:    Federal Aviation Administrator

           In fiscal year 2010, the Federal Aviation Administration (FAA) provided airports
           nationwide over $3.4 billion in Airport Improvement Program (AIP) funding. As
           required by Federal law, recipients of AIP funds must ensure that airports are as
           self-sustaining as possible and use airport revenues only for airport capital and
           operating costs. FAA, in turn, is responsible for effective oversight of airport
           revenue.

           Over the last 30 years, FAA, our office, and the Government Accountability
           Office (GAO) have identified serious airport revenue use problems at Venice
           (Florida) Municipal Airport. In September 2009, at the request of former Senator
           George LeMieux, we evaluated concerns regarding the Venice Municipal Airport
           and identified issues warranting a more detailed review of how the City of Venice,
           the airport sponsor, uses airport revenue. Accordingly, our audit objective was to
           evaluate whether FAA’s oversight ensures that the City of Venice is using airport
           revenues only for appropriate purposes and that the airport is as self-sustaining as
           possible. We conducted the audit from June 2010 through March 2011 in
           accordance with Government auditing standards prescribed by the Comptroller
           General of the United States. Exhibit A details our audit scope and methodology.

           RESULTS IN BRIEF
           FAA has not ensured that the City of Venice used airport revenue for appropriate
           purposes or that the airport is as self-sustaining as possible. For example, in 1998
                                                                                                                     2


and 2004, FAA permitted the City (as both the airport sponsor and the provider of
municipal functions) 1 to transfer airport properties to itself at prices below fair
market value (FMV). 2 Agency policy requires that airport property be sold at
FMV. Yet, FAA approved these transactions even though the associated property
appraisals were generally 2 to 10 years old and the combined sales price was
$1.1 million below the appraised value 3 and $5.2 million below the tax assessed
value. 4 In addition, Federal law requires that airport revenue be used only for the
airport’s capital and operating costs. However, FAA’s oversight did not prevent
the City from misallocating lease revenue and parking lot improvement costs.
Specifically, over a 21-year period, the City diverted over $1.5 million in airport
lease revenue to maintain a municipal fishing pier and indirectly charged the
airport too much for parking lot improvements. These revenue losses also
undermine the airport’s compliance with the Federal requirement that airports be
as self-sustaining as possible. Had FAA required the City to establish an equitable
means of allocating airport property sales and leases and parking lot improvement
costs, as much as $6.7 million in lost revenue could have been used to improve the
airport’s self-sufficiency 5 or cover 3 years of airport operating expenses.

We made five recommendations to improve FAA’s oversight of airport property
sales and the Venice airport’s self-sustainability. FAA concurred or partially
concurred with all our recommendations, but we are requesting that the Agency
reconsider its position for three of them, particularly its interpretation of FAA’s
Revenue Use Policy.

BACKGROUND
Venice Municipal Airport (the airport) was built in 1942 as a U.S. Army Air Force
training base. Between 1947 and 1964, the Federal Government transferred the
property comprising the current airport and surrounding properties to the City of
Venice, which now owns and operates the airport. Between 1984 and 2006, FAA
awarded the City more than $5.3 million for 11 AIP grants for purposes such as
improving runways and taxiways and revising the airport’s master plan and airport
layout plan.



1
    Other City functions include maintaining the City fishing pier, owning parks, and operating utilities.
2
    We identified similar issues in a recently completed audit of Stapleton Airport land sales in Denver, CO, where
    parcels were sold for less than FMV. See OIG Report Number AV-2011-057, “FAA Did Not Ensure Revenue Was
    Maximized At Denver International Airport,” February 28, 2011. OIG reports are available on our Web site at
    http://www.oig.dot.gov.
3
    The $1.1 million figure is based on appraisals of airport property that FAA provided. FAA agreed to lower the
    property values because the City argued that the property was "environmentally sensitive."
4
    According to appraisers hired by the City, appraised values are typically 10 to 20 percent higher than tax assessed
    values.
5
    An example of airport self-sustainability is reducing or eliminating the City’s need for Federal AIP grants.
                                                                                                                    3


As the airport sponsor, the City must comply with U.S. law and FAA policy,
including the Surplus Property Act of 1944; the Airport and Airway Improvement
Act of 1982; FAA Order 5190.6B, “Airport Compliance Manual,” and FAA’s
Revenue Use Policy. 6 Specifically, the City must receive FMV for the non-
aviation use (i.e., lease or sale) of donated land (i.e., transferred from the U.S.
Government) and use the revenue for the airport’s capital or operating costs in
accordance with AIP grant assurances.

FAA is responsible for advising airport sponsors and providing oversight to ensure
that they comply with Federal obligations regarding airport revenue, self-
sustainability, and other matters. The Agency ordinarily oversees revenue use and
self-sustainability by approving the sales of airport property and by concurring
with non-aeronautical leases—both of which must be at FMV. FAA also inspects
airport sponsors’ compliance with Federal airport obligations and investigates
allegations of non-compliance by airport sponsors.

Over the past 30 years, the City’s use of airport revenue has been the subject of
multiple Federal reviews. In 1978, FAA conducted a review 7 that identified
several non-aeronautical leases between the airport and various tenants that were
below FMV. In 1993, we reported that the City of Venice under-collected
$2.4 million in airport revenue due to leasing property below FMV. 8 In 1999,
GAO reported 9 that the airport had lost at least $25 million due to leases with rates
below FMV. From 2002 to 2004, FAA investigated allegations of revenue
diversion regarding the City’s lease of airport property to a golf association but did
not conclude that diversion occurred. 10 Finally, in 2009, FAA inspected the City’s
compliance with Federal land-use requirements and identified several potential
issues that the Agency is actively pursuing (e.g., non-aeronautical uses of airport
property, problematic leases, safety, and maintenance deficiencies).

FAA DID NOT EXERCISE EFFECTIVE OVERSIGHT OF VENICE
AIRPORT LAND SALES AND LEASES
FAA did not ensure that all Venice airport property sales and lease transactions
followed Federal requirements and FAA policy. In particular, FAA accepted
flawed property appraisals and did not validate that the property was
environmentally sensitive 11 and therefore of limited value. In addition, FAA did

6
     “Policy and Procedures Concerning the Use of Airport Revenue,” 64 Federal Register 7696, February 16, 1999.
7
     In multiple letters dated 1978, FAA instructed the City to compensate the airport account for 6 years of payments
     that were below FMV. The leases were with the City, Sarasota County, and the Venice Golf Association.
8
     OIG Report Number R4-FA-3-724, “Airport Revenue Accountability, City of Venice, Florida,” July 22, 1993.
9
     GAO Report Number RCED-99-109, “General Aviation Airports Unauthorized Land Use Highlights Need for
     Improved Oversight and Enforcement,” May 7, 1999.
10
     However, based on FAA's investigation, the City increased the lease from $160,000 per year to $180,000 per year.
11
     The City claimed that 15 acres of onsite wetlands and wildlife habitat restricted development of this property.
                                                                                                                       4


not require the City to establish an equitable agreement for dividing restaurant
lease revenue and parking lot development costs between the City and the airport.
As a result, the airport lost significant revenue that could have been applied to
operations costs to increase the airport’s self-sustainability.

FAA Did Not Ensure Airport Property Was Sold for Fair Market Value
Federal law and FAA policy require that airports receive FMV for all sales or
transfers of airport property. However, from 1998 to 2004, FAA approved the
transfer of three airport properties to the City for amounts below FMV, as
illustrated by table 1. By transferring these properties for less than FMV, FAA and
the City did not comply with the Surplus Property Act of 1944, FAA’s Airport
Revenue Use Policy, and FAA Order 5190.6A. Moreover, FAA did not follow
Agency policy, which requires a current appraisal (i.e., within 6 months) 12 by a
certified appraiser, and did not ensure that the sales were conducted in an impartial
manner. 13
                        Table 1. Venice Property Transfers/Sales, 1998–2004
                                                        Appraisal                        Appraisal
                                             Date         Date          Sale Price        Value          Difference
            Parcel              Acres        Sold
  Brohard Park                    40         1998          1994           $165,000 $1,200,000 $1,035,000

  Chuck Reiter Field               9         1998          1996           $250,000        $279,000          $29,000

  Wastewater
  Treatment Site                   7         2004          1994           $214,000        $266,000          $52,000

  Totals                          56                                      $629,000 $1,745,000 $1,116,000
Source: OIG analysis of airport property appraisals

The combined sales price for these properties was $1.1 million below appraised
value and $5.2 million below tax assessed value. 14 This deficit resulted in a
diversion of airport revenue that could have been used to fund up to 3 years of the
airport operating expenses or to pay for other, much needed airport
improvements. 15 Unfortunately, FAA cannot recover these funds because the
transactions occurred more than 6 years ago—the statute of limitations established




12
     Although FAA policy does not define “current,” the Agency's general practice, or “rule of thumb,” is that appraisals
     should be no more than 6 months old, according to Office of Airports, Southern Region, and Orlando Airports
     District Office officials.
13
     FMV is based on an impartial transaction in which unrelated parties act in their own best interests.
14
     While FAA does not use tax assessments to establish a property’s FMV, such assessments are a standard part of the
     Florida State appraisal process and a useful point of comparison with property appraisals.
15
     In December 2010, Venice applied for a $4.7 million grant to rehabilitate runway 4/22.
                                                                                                                        5


by law. 16 Nevertheless, the losses undermined the airport’s self-sustainability and
increased its need for AIP grants.

Moreover, since the City requested these transfers and acted as both the buyer and
seller, there was an inherent conflict of interest in determining the “highest and
best” sales price or FMV for these properties. When an airport sponsor purchases
airport land to be used for other purposes (such as city parks or utilities), it is
critical that the transactions be conducted in an impartial manner. This is
particularly important with Venice, since the City intends to purchase additional
airport property.

The following provides a detailed explanation of the three property transactions
(shown in table 1).

      Brohard Park: In June 1998, FAA approved the City’s purchase of 40 acres
       of airport beachfront property for $165,000 to create a public park. This price
       was only 14 percent of the property’s 4-year-old appraised value of
       $1.2 million 17 and only 4 percent of the 1998 tax assessed value of
       $4,677,349. FAA approved this sale even though the City did not provide a
       map of the property being released, demonstrate how the release would be
       more beneficial than keeping the property for rental income, or describe the
       release’s benefit to civil aviation—as required by FAA policy. In addition,
       the appraisal was for a 73-acre parcel, so the lack of a survey map or legal
       description made it impossible to know whether the transferred property of
       40 acres matched the appraised property.

          FAA approved the low sale price based on a letter from the City stating that
          the airport land was environmentally sensitive and not practical to develop
          for purposes other than a park. 18 However, FAA did not validate this claim
          by requiring an environmental assessment or a current, independent
          appraisal. As a result, FAA failed to ensure the airport received FMV.
          Specifically, FAA allowed the City to use seven properties to establish a
          sales price for Brohard Park, even though those properties were not on
          beachfront land like Brohard Park. The seven properties were also
          environmentally restricted and therefore inappropriate comparisons. In
          particular, Brohard Park includes a commercial restaurant and a waste-water
          treatment facility, demonstrating that environmental sensitivity did not
          prevent the property's development, including the subsequent expansion of
          the restaurant and associated parking.

16
     49 U.S.C.§ 47107(n)(7) states that “No person may bring an action for the recovery of funds illegally diverted . . .
     6 years after the date on which the diversion occurred.”
17
     The appraised value per acre was $30,000, which is $2.2 million for 73 acres or $1.2 million for 40 acres.
18
     The letter responded to an FAA request that the City provide additional support for the sale price and the property’s
     environmental sensitivity.
                                                                                                                    6


      Chuck Reiter Field: In February 1998, FAA approved the City’s purchase
       of a 9.15-acre baseball park on airport property for $250,000. This price was
       $29,000 less than a 1996 amended appraisal 19 and 85 percent of the 1998 tax
       assessed value of $292,916. In addition, the map included in the appraisal
       was for 8.2 acres and FAA’s deed of release was for 9.15 acres. The City
       requested this release to end recurring compliance problems after Federal
       reviews in 1978 and 1993 determined that the airport was not receiving fair
       market rent for this property. 20 In approving this transfer, FAA did not
       comply with its own policy because (1) there was no demonstrated benefit
       for transferring the property instead of keeping it for rental income, 21 (2) the
       acreage on the deed of release did not match the appraisal, and (3) the
       purchase was at a price below FMV.

      Venice Beach Wastewater Treatment Site: In February 2004, FAA
       approved the City’s purchase of seven additional acres of airport beachfront
       property for about $214,000 to develop another park, known as Tramonto
       Vista Park. The price was below FMV at just 80 percent of the property’s 10-
       year old appraised value and only 26 percent of the 2004 tax assessed value
       of $836,000. FAA accepted the City’s sales price based on a list of the values
       of 27 environmentally protected properties purported to be comparable to this
       property; however, these properties were not good comparisons because they
       did not have the same highest and best use 22 as Tramonto Vista Park and
       were not on the Gulf of Mexico. In addition, FAA did not follow Agency
       policy in requiring that the sponsor provide (1) a current, independent
       appraisal, (2) documentation supporting transfer over retention of the
       property for rental income, or (3) consistent maps of the property. FAA also
       identified this latter issue in its 2009 Land Use Inspection and directed the
       City to provide an accurate survey.

Given these past practices at Venice airport, we have concerns that additional
airport property may be transferred at less than FMV. For example, FAA and the
City of Venice have proposed releasing the following two airport properties:

      Maxine Barritt Park: This park is adjacent to Tramonto Vista Park and
       consists of 12 acres of beachfront property, including a pond, walkway, and
       several beach look-out platforms. The pond, which is leased to the City
       Utilities Department, generates at least $54,000 per year for the airport. In
       anticipation of acquiring this land, the City hired an appraiser who

19
     The 1996 amendment updated Chuck Reiter Field’s FMV as approximately $279,000.
20
     In 1978 FAA instructed the City to compensate the airport $16,268 for diverted revenue, and in 1993 our office
     determined the rent was $13,104 below fair market rent.
21
     The appraised rental value was less than the existing lease to a baseball league for $25,484 per year and did not
     include any value for a City water tower and other leases.
22
     Highest and best use is whatever the property could be used for that would produce the highest value or income.
                                                                                                                        7


        determined that 4 of the 12 acres (land) have a FMV of $585,000 and that the
        remaining 8 acres (the pond) have no value. The appraisal, however, may
        have undervalued the property because it did not (1) consider the highest and
        best use of the land, (2) include the rental income or improvements on the
        property, or (3) independently verify the maps and legal description. 23
        Finally, the appraised value appears low at 29 percent of the property’s 2010
        tax assessed value of $2 million.

      Sharky’s on the Pier: In an October 2009 letter, FAA suggested that the
       City sell airport property being used for a beachfront restaurant, “Sharky’s on
       the Pier,” to end recurring complaints and compliance problems regarding
       this property. The City received appraisals of this property in 1994, 2006, and
       2010, following reviews by our office and FAA. However, these appraised
       values are not only inconsistent, but also appear excessively low when
       compared to the tax assessed values (see Table 2). For example, the last two
       appraisals 24 include limited scope, hypothetical zoning, and inappropriate
       comparisons to inland properties. They were also significantly lower than the
       tax assessed values, which show a consistent growth. In addition, appraisal
       values have fluctuated significantly, with the 2010 appraisal being much
       lower than one performed 16 years earlier (see table 2 below). FAA has
       indicated that it shares our concerns and will request a review of the 2010
       appraisal. 25
             Table 2. Appraisals vs. Tax Assessed Values for Sharky’s Property,
                                          1994–2010

                                      Appraisal Values                  Tax Assessed
                        Year            (for 1 acre)                   Value (for 1 acre)
                        1994                $725,000                          $805,860

                        2006                $217,800                        $1,524,816

                        2010                $482,209                        $3,268,127
                      Source: OIG analysis

These two property transfers will be required to comply with the Surplus Property
Act, FAA Order 5190.6B, and FAA’s Revenue Use Policy. However, these
policies lack explicit guidance to ensure the airport receives FMV when the airport
sponsor acts as both the buyer and seller of airport property. FAA has indicated



23
   Each of these steps are part of the Florida guidelines for a standard appraisal report and required by FAA policy.
24
   The 2006 and 2010 appraisals were conducted by the same appraiser.
25
   A review appraisal is an independent review of an existing appraisal to determine its validity and accuracy.
                                                                                                                       8


that it is currently reviewing its land release policy in such cases, and may require
a review or second appraisal for unique properties, such as Sharky’s. 26

FAA Did Not Prevent the City from Misusing Airport Revenue
Although FAA identified and is addressing a number of lease issues as part of its
land use inspection, two significant issues remain relating to Sharky's restaurant
and associated parking. Specifically, we found that the City, over a 21-year period,
failed to provide the airport its fair share of revenue from the restaurant lease,
resulting in the airport losing over $1.5 million. In addition, the City may be
indirectly charging the airport too much for parking lot improvements. These
losses occurred primarily because FAA has not required the City and the airport to
establish an equitable agreement for distributing restaurant lease revenue and
allocating improvement costs for parking lot renovations. As a result, the airport
has less revenue to ensure self-sustainability.

Insufficient Lease Revenue from Sharky’s: We determined that since 1989 the
City has underfunded the airport in excess of $1.5 million from the Sharky’s lease
(see table 3). This occurred because FAA has interpreted its Revenue Use Policy
as limiting airport revenue to only FMV land rent, as opposed to also including a
portion of Sharky’s gross proceeds. Over a 21-year period, the City received about
$4.7 million in revenue for the lease, which includes land rent and a percentage of
the restaurant’s gross receipts. The City distributed about $3.3 million to its Pier
Fund (which helps maintain the City’s fishing pier) and about $1.4 million to the
airport. In contrast, we estimate that the airport should have received nearly
$2.9 million of the lease, due to the restaurant being located mostly on airport
property. 27
       Table 3. Potential Underpayments to Airport Fund from the Sharky’s Lease,
                                      1989–2010

                                                        City Estimate OIG Estimate
                                Payments
                                                          (Millions)    (Millions)
                           Amount Owed                        $1.6                   $2.9
                           Amount Paid                        $1.4                   $1.4

                           Amount Underpaid                   $0.2                   $1.5
                          Source: OIG analysis of City financial data


26
     As a result of our February 2011 audit report regarding airport revenue at Denver International Airport, FAA is in
     the process of amending its guidance for land appraisals and disposals and will likely require a second appraisal for
     large or unusual properties. (See OIG Report Number AV-2011-057, “FAA Did Not Ensure Revenue Was
     Maximized at Denver International Airport,” February 28, 2011.)
27
     Prior to the 1998 transfer of airport property to the City for Brohard Park, 100 percent of the restaurant and
     associated parking spaces were located on airport property. Since that time, we estimate—using survey maps and the
     2008 lease—that the airport’s share of the land used by the restaurant and associated parking has dropped to around
     50 percent.
                                                                                                                           9


The funds were distributed in this manner based on a series of actions taken by the
City. Specifically:

     • From 1986, the City leased airport property to the Pier Group Inc. to operate
       “Sharky’s on the Pier.”
     • Under two separate leases (i.e., 1986 and 2008), the Pier Group agreed to pay
       the City ground rent and a percentage of the gross receipts from the
       restaurant, but neither lease specifies any revenue for the airport.
     • In 1998, the City passed a resolution 28 with the concurrence of FAA's
       Southern Region requiring the City Pier Fund to pay the Airport Fund
       $72,000 29 per year plus Consumer Price Index adjustments.
     • In September 2008, the City determined that the airport was entitled to one-
       third of the entire lease proceeds, based on an estimate that Sharky’s and its
       parking lot occupies one-third of airport property and two-thirds of City
       property.

FAA’s Southern Region reviewed the City’s one-third distribution in a 2009 land
use inspection report. 30 The review addressed the lease and revenue distribution
and accurately identified that less than one-third of the lease proceeds has actually
been deposited in the Airport Fund. The Region also concluded that this
distribution of lease proceeds could be contrary to grant assurances 31 and may be a
revenue diversion. Yet, the land use inspection did not examine whether the City’s
one-third estimate was an appropriate basis for distributing the lease revenue.
Conversely, based on our analysis of airport survey and boundary maps as well as
the current lease, we conclude that since 1998, approximately half of the land used
by the restaurant and associated parking is on airport property. As a result, the
airport should receive a larger share of the lease revenue, which would help
maintain the airport’s self-sustainability.

While the Southern Region’s land use inspection raised the possibility of the
airport receiving additional revenue from the Sharky’s lease, FAA’s Compliance
Division has stated that it only requires that the airport receive FMV land rent.

28
     We identified a number of problems with the 1998 resolution. First, it was based on an outdated 1994 property
     appraisal. Second, it did not accurately identify the airport property involved. Third, it did not explain the roles and
     responsibilities of all key stakeholders (i.e., the airport, city, and restaurant owner). Finally, FAA and the City did
     not seek to update the resolution to comply with FAA’s 1999 Revenue Use Policy and to establish an equitable
     distribution of lease proceeds and capital improvements between the key stakeholders that protects the self-
     sustainability of the airport.
29
     The $72,000 rent was based on a 1994 appraisal, which established fair market rent as $72,500 per year.
30
     FAA raised various concerns about the distribution of airport revenue in its 2009 land use report, “Land Use
     Inspection Report, Venice Municipal Airport, Venice, FL,” August 10, 2009. This report, however, made no mention
     of the parking lot improvements.
31
     Under grant assurance 25, Airport Revenues, airport sponsors agree that all revenues generated by the airport will be
     expended by it for the capital or operating costs of the airport; the local airport system; or other facilities which are
     owned or operated by the owner or operator of the airport.
                                                                                                                     10


Since the 1998 resolution, revenues derived from the Sharky’s lease have been
deposited by the City into its Pier Fund, part of which is then transferred to the
Airport Fund as compensation for the use of airport property. Despite the concerns
raised by the Southern Region, FAA’s Compliance Division considers this use of
Sharky’s lease revenues appropriate, arguing that the Revenue Use Policy does not
dictate that the Airport Fund receive more than fair market land rent for non-
aeronautical land. 32 The Division officials also stated that the airport is not entitled
to additional lease proceeds (i.e., from the restaurant’s gross receipts) because it
does not share in the risk of entering into and managing the lease.

We disagree with the Compliance Division’s position about the additional lease
proceeds. According to FAA’s Revenue Use Policy, all rent for activities
occurring on airport property is considered airport revenue. Specifically, airport
revenue includes “… all … rents … accruing to the (airport) sponsor for any …
revenue from … tenants … of airport property….” In our opinion, the City’s
distribution of the entire Sharky’s lease revenue (i.e., both the ground rent and a
percentage of gross receipts) to the Pier Fund—which later distributes some funds
to the Airport Fund—is inappropriate because it allows an airport sponsor to
benefit by using airport revenue for non-airport projects and compromises the
future self-sustainability of the airport.

While we estimate that the airport has been underpaid over $1.5 million from the
Sharky’s lease, only $493,070 (plus interest) in questioned costs 33 could be
returned to the airport fund (see exhibit B) because of the 6-year statute of
limitations on recovering unlawful diverted revenue. In addition, we estimate that,
over a 5-year period, about $426,329 in future funds (see exhibit C) could be put
to better use if the City distributed lease proceeds in accordance with the
percentage of leased property that is airport owned.

Excessive Parking Lot Renovation Costs:                                       Table 4. City’s Allocation of
The City indirectly charged the airport too                                       Renovation Costs
much for renovations to the parking lot serving
Sharky’s, the fishing pier, and Brohard Park.                                                            Dollar
In May 2008, the City finished renovations                                  Methodologies               Amount
totaling $1,380,647, which transformed a                                     Pier Group                 $615,000
gravel lot into a paved parking lot with                                          Airport               $255,216
373 spaces. As illustrated in table 4, the Pier                                     City                $510,431
Group Inc. contributed $615,000 to the
                                                                                   Total             $1,380,647
improvements, leaving an outstanding balance
                                                                           Source: OIG analysis of City data
of $765,647, which the City distributed

32
     FAA also states that the Sharky’s lease is unique because airport property leases typically are only for land rent.
33
     According to the Inspector General Act of 1978, a questioned cost is an alleged violation of law, grant, contract, or
     policy regarding the expenditure of funds.
                                                                                                                11


between itself and the airport. The City calculates that the airport is responsible for
$255,216 of the cost, based on its determination that one-third of the property
needed for Sharky’s is on airport property. While this is one of several methods
for distributing the improvement costs, we believe the most accurate and equitable
approach—if the airport shares in the gross receipts from the restaurant—would
involve charging the airport only about one-seventh ($117,000) of the
improvements, since one-seventh (57 of the 373) of the parking spaces are actually
on airport land. This method is also consistent with the Revenue Use Policy,
which requires that expenditures not exceed the fair and reasonable value of the
services provided the airport.

While the City maintains that no airport funds were withdrawn to pay for the
renovations, it calculated the airport share to be $255,216, and offset most of these
costs by reducing the amount of lease revenue deposited into the airport fund.34
Nevertheless, as a result of this arrangement, the airport ended up paying for a
disproportionate share of the parking lot renovations. This situation occurred, in
part, because FAA and the City did not establish a fair and equitable agreement for
allocating Sharky’s lease revenue and capital improvements costs, such as those
associated with the parking lot renovations.

CONCLUSION
The budget constraints now facing FAA and the financial strains on the Nation’s
airlines and airports underscore the need for vigilant oversight of airport revenue
use. Because FAA did not effectively oversee the lease and sale of property at
Venice, the airport has lost and will continue to lose revenues that could be used to
reduce its reliance on Federal funding. Of particular concern is the adverse effect
on the sale price when the airport sponsor is both the seller and buyer of airport
properties—an area that FAA policies currently do not explicitly address. FAA
must strengthen both its oversight and its policy to ensure that airports are as self-
sustainable as possible and that the airport sponsors do not misuse revenues from
sales and leases at the airport’s—and taxpayers’—expense.




34
     In August 2011, Venice City officials reiterated that no airport funds were used to pay for the parking lot
     renovations. However, on at least two occasions in July 2010, a senior City official explained and provided OIG
     auditors documentation showing that funds due the airport fund were offset by the $255,216 in parking lot
     improvement costs.
                                                                               12


RECOMMENDATIONS
We recommend that FAA:
 1. Strengthen Agency policy to ensure that transfers of airport property acquired
    through Federal assistance are based on independent certified appraisals
    performed within 6 to 12 months of the transfer and reviewed by an
    independent real estate professional, especially when the parcel is unusual or
    the transfer is between an airport and its sponsor.

 2. Require the City to complete the independent review appraisal of the
    property used by the Sharky’s restaurant if sold, and any subsequent transfers
    of airport property.

 3. Assess the revenue diversions or self-sustainability issues involving the
    distribution of Sharky’s lease revenue and parking lot renovation costs and
    seek full recovery, plus interest on the $493,070 in questioned costs
    identified by our office (see exhibit B) and any other improperly allocated
    revenue identified by FAA.

 4. Work with the City of Venice to develop an appropriate allocation of future
    rent revenue from Sharky’s over the remaining term of the lease and the cost
    of subsequent capital improvements such as parking lot renovations, that
    protects the self-sustainability of the airport.

 5. Assess the adequacy of the Agency’s policies and procedures for overseeing
    the transfer or lease of large or unusual airport properties to ensure that
    sponsor agreements are fair and equitable and protect the airport’s self-
    sustainability.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
We discussed the results of our review with officials from FAA’s Airport
Compliance Division on March 23, 2011 and provided the Agency our draft report
on July 27, 2011. We received FAA’s formal response on September 21, 2011,
and have included it as an appendix to this report. In its response, FAA concurred
with four recommendations and partially concurred with the fifth. Overall, FAA’s
response meets the intent of recommendations 1 and 2, and we consider these
recommendations resolved but open until the Agency completes its planned
actions. We also ask that FAA provide us a target date for the completion of its
actions for recommendation 2.
                                                                                 13


For recommendations 3, 4, and 5, FAA’s response and planned actions only
partially meet the intent of our recommendations, and we are asking that the
Agency reconsider its responses. Specifically:

• FAA partially concurred with recommendation 3, stating that it would assess
  revenue diversion and self-sustainability questions regarding the Sharky’s
  property. However, the Agency disagreed with our interpretation of the
  Agency’s Revenue Use Policy, stating that this policy only requires that the
  airport receive fair market rental value for the Sharky’s property. The Agency
  did not explain why all the lease revenue is not airport revenue, as stated in
  Section II of the Revenue Use Policy. Considering the sizable lease revenue
  that the City did not distribute to the airport, we believe this matter merits
  reconsideration. In effect, the City rents the Sharky’s property from the airport
  at one rate and leases it to a third party at a higher rate. We are also concerned
  about the precedent that this situation sets. Other airport sponsors could
  establish a similar mechanism, allowing them to siphon off airport lease
  revenue that could better be applied to ensuring the self-sustainability of the
  airports. Accordingly, we request that FAA reconsider its interpretation and
  application of the Revenue Use Policy.

• FAA concurred with recommendation 4, stating that the airport should avoid
  all costs associated with the Sharky’s property and that the airport
  administrator should not help manage it. While we agree that the airport should
  not manage this property, we disagree with the Agency’s approach to
  addressing this recommendation, which is tied to its response to
  recommendation 3: FAA believes the airport is only due fair market land rent
  instead of the full rent revenue from the airport property. As a result, we
  request that FAA reconsider its position in response to recommendation 4.

• FAA concurred with recommendation 5 and stated that it is assessing practices
  for the disposal or lease of large properties and planning to complete a draft
  policy in February 2012. While this assessment should help improve FAA
  oversight, FAA’s response does not adequately address smaller, atypical
  airport properties, such as those belonging to the Venice airport. FAA states
  that additional oversight for these properties may not be justified on a cost-
  benefit basis. While we agree that FAA needs to be judicious with its
  resources, we think that airports with a history of compliance issues and other
  unique attributes, such as Venice, would benefit from the improved oversight
  practices that the Agency is developing. Therefore, we request that the Agency
  reconsider its position in response to recommendation 5.
                                                                                 14


ACTIONS REQUIRED
FAA’s proposed action for recommendation 1 is responsive, and we consider it
addressed but open pending completion of the planned action. For
recommendation 2, we are asking FAA to provide us a target completion date for
its review of the Sharky’s property appraisal. For recommendations 3, 4, and 5, we
are asking the Agency to reconsider its position. We request that FAA provide us
this additional information within 30 days.

We appreciate the courtesies and cooperation of FAA and City of Venice
representatives during this audit. If you have any questions concerning this report,
please contact me at (202) 366-0500 or Darren Murphy, Program Director, at
(206) 220-6503.

                                         #

cc: FAA Deputy Administrator
    Acting Assistant Administrator for Airports
    Anthony Williams, ABU-100
    Martin Gertel, M-1
                                                                                 15


EXHIBIT A. SCOPE AND METHODOLOGY
We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform
the audit to obtain sufficient, appropriate evidence to provide a reasonable basis
for our findings and conclusions based on our audit objective. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions.
We conducted the audit between June 2010 and March 2011 and included such
tests of procedures and records as we considered necessary, including those
providing reasonable assurance of detecting abuse and illegal acts.

To determine whether FAA oversight ensures that the City is using airport
revenues for appropriate purposes, we interviewed officials from the City, Airport,
and FAA’s Compliance Division, Southern Regional Office, the Orlando Airport
District Office (ADO), as well as airport tenants and community interest groups.
We then reviewed FAA, City, and Airport policies and procedures on revenue use
to ensure the airport sponsor complied with AIP grant assurances and Federal land
use requirements. To identify prior audit findings, we analyzed consolidated
annual financial statements, single audits, OIG reports, and GAO reports.

To assess whether airport funds were used for the capital and operating costs of
the airport, we reviewed a statistical sample of 53 airport payments equaling
$145,894 which were pulled from a total population of 1,303 payments
representing $5,571,284. We relied on data maintained in the City accounting
system and verified its accuracy during testing of sampled transactions. To verify
that funds were expended in accordance with AIP grants agreements, we reviewed
all grant files at the Orlando ADO and the supporting documentation for the four
most recent AIP grants at the City of Venice. To assess whether there is a basis for
allocating costs and whether the methodology is consistently applied, we analyzed
the most recent cost allocation plans for fiscal years 2005, 2006, and 2007. To
obtain an interpretation of FAA’s Revenue Use Policy regarding the definition of
airport revenue, we met with legal counsel from our office and the Office of the
Secretary and reviewed relevant policy and Federal law.

To determine whether the airport was receiving FMV for land sales, we reviewed
FAA and City documents including property appraisals, deeds, surveys, maps, and
tax assessed values of airport land, and interviewed FAA and City officials, as
well as two Florida real estate appraisers and the Sarasota County Tax Assessor’s
Office. We reviewed the appraisals to determine whether they were independent,
based on comparable sales, and considered the highest and best use of the
property. To assess whether the sales price was appropriate, we compared the sales
price with the appraised and tax assessed values.




Exhibit A. Scope and Methodology
                                                                                  16


To determine whether FAA oversight ensures that Venice Municipal Airport is as
self-sustaining as possible, we obtained and reviewed non-aeronautical and
aeronautical lease agreements and Consumer Price Index adjustments to determine
the proper rental payments owed the airport. To confirm where non-aeronautical
leases are issued at FMV we compared the appraised value to the rental amount
outlined in the lease. Further, to confirm whether the airport fund receives funds as
required in the lease agreements, we obtained the lease deposits from the City and
compared the deposits to the amounts required in the lease agreements.

To determine the universe of airport property, we interviewed ADO and airport
officials and analyzed City and airport files, including quit-claim deeds, survey
maps, appraisals, and airport layout plans. We then toured the airport and
compared the airport property to existing leases to identify parcels without a
current lease. We also interviewed the surveyor hired by the City for the
2010 survey of airport property. We reviewed FAA policy and interviewed
ADO officials to determine if a lease was required. To quantify the airport’s
percentage of land leased for Sharky’s restaurant and to validate the proper
distribution of revenues between the City and the airport we relied on the expertise
of OIG engineers to analyze leases, maps, property boundaries, and a 1998 City
resolution.




Exhibit A. Scope and Methodology
                                                                                                                      17


EXHIBIT B. UNDERPAYMENTS TO AIRPORT FUND

                                                       Total               Estimated
                                                     Deposits to          Amount Due             Total Under-
                              Total Lease             Airport               Airport               payment to
       Time Frame              Proceeds                Fund                 Fund 35              Airport Fund
        1989–1990               $60,434.00            $19,320.00            $60,434.00             ($41,114.00)
        1990–1991               $71,108.50            $19,320.00            $71,108.50             ($51,788.50)
        1991–1992               $95,812.00            $21,252.00            $95,812.00             ($74,560.00)
        1992–1993              $127,501.55            $21,252.00           $127,501.55            ($106,249.55)
        1993–1994              $137,994.00            $21,252.00           $137,994.00            ($116,742.00)
        1994–1995              $153,793.00            $21,252.00           $153,793.00            ($132,541.00)
        1995–1996              $155,121.00            $36,000.00           $155,121.00            ($119,121.00)
        1996–1997              $163,498.00            $72,000.00           $163,498.00             ($91,498.00)
        1997–1998              $173,551.00            $72,000.00           $173,551.00            ($101,551.00)
        1998–1999              $179,211.00            $73,584.00            $89,605.50             ($16,021.50)
        1999–2000              $203,026.00            $75,056.00           $101,513.00             ($26,457.00)
        2000–2001              $221,789.00            $76,557.00           $110,894.50             ($34,337.50)
        2001–2002              $224,553.00            $78,089.04           $112,276.50             ($34,187.46)
        2002–2003              $235,737.00            $79,650.00           $117,868.50             ($38,218.50)
        2003–2004              $252,297.00            $81,243.00           $126,148.50             ($44,905.50)
        2004–2005              $290,882.00            $82,868.04           $145,441.00             ($62,572.96)
        2005–2006              $342,430.00            $85,353.96           $171,215.00             ($85,861.04)
        2006–2007              $370,081.00            $95,000.04           $185,040.50             ($90,040.46)
        2007–2008              $393,507.00            $97,850.04           $196,753.50             ($98,903.46)
        2008–2009              $394,327.00            $97,850.04           $197,163.50             ($99,313.46)
        2009–2010               $407,268.00           $147,255.00            $203,634.00             ($56,379.00)
          Total
                              $2,198,495.00           $606,177.12         $1,099,247.50            ($493,070.38)
        2004–2010
          Total
                              $4,653,921.05 $1,374,004.16                 $2,896,367.05          ($1,522,362.89)
        1989–2010




35
     Prior to 1998, the airport contributed 100 percent of the land leased to the Pier Group, Inc. (owners of Sharky’s
     restaurant). This amount dropped to around 50 percent after FAA approved the transfer of airport land to the City for
     Brohard Park in 1998.


Exhibit B. Underpayments to Airport Fund
                                                                                                                         18


EXHIBIT C. FUTURE UNDERPAYMENTS TO AIRPORT FUND


                                               Total     Estimated    Total Under-
                              Total Lease   Deposits to Amount Due     payment to
       Time Frame              Proceeds    Airport Fund Airport Fund Airport Fund 36
        2010–2011              $435,884.71  $143,841.96  $217,942.36    ($74,100.40)
        2011–2012              $466,504.86  $153,946.60  $233,252.43    ($79,305.83)
        2012–2013              $499,268.42  $164,758.58  $249,634.21    ($84,875.63)
        2013–2014              $534,325.43  $176,327.39  $267,162.72    ($90,835.32)
        2014–2015              $571,836.43  $188,706.02  $285,918.22    ($97,212.19)
          Total
                             $2,507,819.86             $827,580.55         $1,253,909.93             ($426,329.38)
        2010–2015




36
     We based our estimate on the following: (1) 5-year average of the increase restaurant’s gross receipts, (2) 50 percent
     of the lease involves airport property, and (3) the City's previous practice of allocating one-third of the lease rent to
     the airport fund.


Exhibit C. Future Underpayments to Airport Fund
                                                                      19


EXHIBIT D. MAJOR CONTRIBUTORS TO THIS REPORT

Name                                Title

Darren Murphy                     Program Director

Jerrold Savage                    Project Manager

Deborah Kloppenburg               Senior Auditor

Andrew Sourlis                    Analyst

Wayne Summers                     Auditor

Teri Vogliardo                    Analyst

Seth Kaufman                      Senior Counsel

Aron Wedekind                     Engineer

Sandy DeLost                      Information Technology Specialist

Andrea Nossaman                   Writer-Editor

Audre Azuolas                     Writer-Editor




Exhibit D. Major Contributors to this Report
Appendix. Agency Comments.




                   Federal Aviation
                   Administration

Memorandum
Date:

To:             Jeffrey B. Guzzetti, Assistant Inspector General for Aviation and Special
                Program Audits

From:           H. Clayton Foushee, Director, Office of Audit and Evaluation, AAE-1

Subject:         OIG Draft Report: FAA Did Not Exercise Effective Oversight of Land
                 Sales and Leases at Venice Municipal Airport Federal Aviation
                 Administration


The Federal Aviation Administration (FAA) has a long history of conducting careful
oversight of Venice Municipal Airport (VNC) including analyses of its unique land use
and financial issues. During the past several years, FAA oversight has balanced the many
demands on its limited airport office resources with sufficient focus on the complicated
details involved at VNC, in an effort to ensure that VNC remains in compliance with its
Federal obligations. The FAA has conducted various reviews and investigations at VNC
including an airspace compatibility audit, an Airport Layout Plan alternatives analysis,
and formal and informal complaint investigations. As a result, the FAA has counseled
the City of Venice on numerous occasions with regard to such issues as reasonable access
to aeronautical leases, aeronautical access, maintaining airport pavements, and airport
runway configurations. In some cases, the FAA has denied the requests of the City, and
these actions have preserved the utility of VNC for aeronautical uses.

In addition to these activities, in May 2009, the FAA conducted an extensive Land-Use
Inspection at VNC. The FAA issued its report in August 2009, preceding the initiation of
the OIG review in 2010. FAA’s inspection identified many of the issues now included in
the Office of Inspector General (OIG) report with regard to leases. We required the City
of Venice to respond to our concerns, including the concern on leasehold valuations
discussed further below.




Appendix. Agency Comments
                                                                                                                      2



Background

The circumstances at VNC are unusual. The VNC properties are beachfront parcels with
development restrictions and environmental degradation, including an archaic wastewater
treatment plant. One parcel constitutes a lease of beachfront property that is closely
integrated with a city-built, owned and maintained, 700-foot long fishing pier extending
into the Gulf of Mexico and along with an associated restaurant, bar, and bait shop
concession -- Sharkey’s on the Pier -- operated by Venice Pier Group, Inc. [Figure 1.]
This exclusive concession is located partly on the Venice Fishing Pier.




Figure 1 Venice Fishing Pier over the Gulf of Mexico with Bait and Snack Shop operated by
Sharkey’s on the Pier.

The Revenue Use Policy allows the FAA to conclude that an airport sponsor is compliant
with the Revenue Use Policy and Federal law if it demonstrably receives no less than fair
market value (FMV) for a lease or sale of an asset paid into the airport account. The
FAA policy recognizes that it is common for airport sponsors to lease or sell airport
property 37 for non-aviation purposes. Airport sponsors must only allow land uses that are
compatible, or do not interfere, with aviation activity, including commercial, industrial,
or agricultural uses that produce revenue for the airport account. FAA requirements on
land disposals include similar compatibility restrictions for land uses after a disposal.
The appraised value of airport properties should consider the value effects of compatible
land-use restrictions in light of FAA’s policy and practice with regard to financial self-



37
     The Federal Government transferred VNC to the City in the 1940s. As such, the airport property is subject to
     Federal Surplus Property obligations, in addition to its obligations under the City’s Federal AIP grant assurances.


Appendix. Agency Comments
                                                                                                                       3


sustainability requirements. 38 FAA requires the sale price or lease of airport property,
including surplus property, to be at the FMV of the land. The FMV of airport property is
the highest current market price of the land to be sold for compatible use and
development with the adjoining airport. On the one hand, the FAA wants the sponsor to
pursue compatible land-uses for aeronautical activity as its prime obligation. On the
other hand, the FAA wants the sponsor to pursue financial benefits to the airport. As a
matter of policy, the FAA has settled on the airport account receiving fair market value of
airport compatible uses as the standard for compliance.

FAA Agrees with Land Valuation and Disposal Issues but Disagrees with the OIG’s
Conclusions with regard to VNC Lease Revenue

Based upon its experience with VNC through its oversight activities, the FAA agrees
with some recommendations of the OIG report, including improving policies regarding
the timing of airport sponsor land disposals and land appraisal, requiring review
appraisals in certain circumstances of land disposal or lease, and reviewing the future
valuation of property and allocation of some lease revenues at VNC. However, the FAA
disagrees with the OIG’s interpretation of certain facts at VNC with regard to the
application of long-standing FAA policy.

For example, although the report alleges that the City diverted lease revenue to maintain
the municipal fishing pier, the FAA neither knows of any investment of airport account
funds into the construction or maintenance of the Venice Fishing Pier, nor does the report
provide any evidence of such investment. Further, the OIG report asserts that the airport
should have received more gross receipts proceeds, in addition to FMV rent, from a
restaurant/bar/bait shop concession at the Venice Fishing Pier on and adjacent to airport
property. The FAA believes that this conclusion may be based upon a misinterpretation
of FAA policy. Specifically, the airport account is not required under FAA’s Policy and
Procedures Concerning the Use of Airport Revenues (Revenue Use Policy) to collect
both FMV rent and a percentage of gross revenue.

RECOMMENDATIONS AND RESPONSES

OIG Recommendation 1. Strengthen Agency policy to ensure that transfers of airport
property acquired through Federal assistance are based on independent certified
appraisals performed within 6 to 12 months of the transfer and reviewed by an
independent real estate professional, especially when the parcel is unusual or the
transfer is between an airport and its sponsor.

FAA Response: Concur. The FAA is working to refine appraisal requirements for land
sales and transfers. We recognize that the market value of land is “as-of a specific date of
a sale,” and as a result of an “arms length” transaction and meeting other FMV criteria.
Comparable land sales are adjusted for changed market conditions from the sale date of a



38
     This is also the standard for revenue retention requirements under the Revenue Use Policy, Sections VI and VII.


Appendix. Agency Comments
                                                                                             4


property in the past to the date of value of the appraisal. For example, more recent sales
prices provide more reliable indicators of actual market value.

For internal land transfers between the airport and agencies of the airport owner, the
FAA is considering requiring all applicants to set a settlement date and to set the sales
price based on a current appraisal (and appraisal review as needed) with a date of value
within 6 to 12 months of the proposed transfer date. The setting of a reasonable
settlement date will assist the FAA and airport sponsors to better manage the many
transactions of smaller monetary value. FAA intends to complete a draft of its revised
requirements by February 28, 2012.

OIG Recommendation 2. Require the City to complete the independent review
appraisal of the property used by the Sharkey’s restaurant if sold, and any subsequent
transfers of airport property.

FAA Response: Concur. The FAA requested a review appraisal based upon the
agency’s 2009 land use inspection and received a review appraisal from the City dated
April 13, 2011. The FAA is reviewing the appraisal, but has not received an application
for release, sale and disposal of the Sharkey’s on the Pier parcel. The FAA agrees that
the Sharkey’s on the Pier parcel should be priced at FMV if sold to the City’s Pier Fund
or sold to Sharkey’s on the Pier leaseholder.

OIG Recommendation 3. Assess the revenue diversions or self-sustainability issues
involving the distribution of Sharkey’s lease revenue and parking lot renovation costs
and seek full recovery as necessary, plus interest of the $493,070 in questioned costs
identified by our office (see exhibit B) and any other improperly allocated revenue
identified by FAA.

FAA Response: Partially Concur. The FAA concurs that it should further assess the
questions of revenue diversion and/or self-sustainability involving the Sharkey’s on the Pier
parcel lease arrangement on the margins. However, the FAA does not accept the OIG
report’s interpretation of FAA policy or its allocation of the Sharkey’s on the Pier parcel’s
costs and revenues cited in the draft report.

The FAA disagrees with the OIG report’s specific finding that the airport should have
received more of Sharkey’s on the Pier gross receipts proceeds in addition to FMV rent.
The airport account is not required under FAA’s Revenue Use Policy to collect both
FMV rent and a percentage of gross revenue. Accordingly, the FAA concludes that an
airport sponsor is compliant with the Revenue Use Policy and Federal law if it
demonstrably receives no less than FMV for assets duly attributed to the airport account.
[See Revenue Use Policy, Section VII.]

Commonly, rent structures for retail concessions can be either FMV rent or a minimum
annual guarantee (MAG) with a percentage rent based upon sales volume. In the former,
the landlord’s role is passive and the transaction is based strictly on the use of property,
with the landlord assuming no risk. The landlord receives FMV rent whether the business
is successful or a failure. In the latter, percentage rents with MAGs provide for revenue


Appendix. Agency Comments
                                                                                              5


sharing, and the landlord’s rent is based upon the concessionaire’s ability to generate
sales volume and grow the business. Landlords tend to set MAGs at a lower level than
FMV rent, with an initial objective of covering the property’s costs. By setting a low
MAG, the landlord expects to participate in the concessionaire’s success as sales volume
increases and the business grows. Conversely, if the concessionaire is unsuccessful, the
landlord bears the financial risk and the potential loss of revenue.

While some airports may have the expertise to manage this type of risk, many clearly do
not. Therefore, it is longstanding FAA policy that airport development is better served by
requiring, at minimum, the use of the less financially risky FMV rent-based approach.
This arrangement allows airports to focus on the management and development of the
airport business and avoiding exposure to non-aviation businesses. The FAA does
recognize, in the case of VNC, that the airport is receiving FMV rent and shares in some
additional revenue generated by Sharkey’s on the Pier. However, the FAA does not
agree that the Revenue Use Policy requires that airports receive both FMV rent and a
percentage of gross receipts.




Figure 2 Access to the fishing pier is integrated into Sharkey's on the Pier's leasehold.

We are concerned about the implications of the OIG’s argument that all rents for the use
of non-aeronautical airport property, accruing to the airport owner in its role as operator
of a municipal enterprise, should be considered airport revenue. Based upon the OIG’s
premise, airport sponsors could no longer lease land to other municipal enterprise
departments without assuming an additional burden for the operation of that business.
Such an undertaking would require airport managers to develop or hire personnel with
expertise in operating convention centers, animal shelters, golf courses, wastewater
treatment plants, etc.

The FAA does not believe that the airport should pay for any of the parking lot
renovations because airport revenue should not be used to support the capital or operating
costs associated with a non-aviation use of airport property. As such, FAA will seek
reimbursement to the airport account of all airport revenue invested in the parking lot.


Appendix. Agency Comments
                                                                                          6


Since the airport account is receiving a set rent, with escalators, based on FMV, it should
not be burdened with investments that serve to increase the gross receipts of the
Sharkey’s on the Pier concession and the pier itself. The city, through its Pier Fund, is
building, operating, and maintaining the pier. The City is taking the risk of the relative
success of the pier concession as part and parcel of the pier operation.

OIG Recommendation 4. Work with the City of Venice to develop an appropriate
allocation of future rent revenue from Sharkey’s over the remaining term of the lease and
the cost of subsequent capital investment such as parking lot renovations, that protects
the self-sustainability of the airport.

FAA Response: Concur. The FAA has determined that the best strategy for VNC is to
avoid all costs associated with the one-acre parcel Sharkey’s on the Pier Parcel, allowing
the Pier Fund to absorb the cost and risk of financing non-airport related capital
improvements, including the capital and operating costs of the pier site. Requiring that
airport managers be involved in managing all enterprises, no matter how unrelated to
aviation, or how capital intensive, is not sound Federal policy for airports. Allowing the
Pier Fund to finance and operate the pier and to collect some gross receipts rent from
Sharkey’s on the Pier as the sole concessionaire for the pier is a reasonable financial
arrangement that is in accord with FAA policy. This structure requires the concessionaire
to contribute to the costs of providing the attraction (fishing pier). However, this option
should reflect FMV for airport property, and it should not assess capital costs to the
airport account for improvements that assist the revenue potential of the pier concession.

OIG Recommendation 5. Assess the adequacy of the Agency’s policies and procedures
for overseeing the transfer or lease of large or unusual airport properties to ensure that
sponsor agreements are fair and equitable and protect the airport’s self-sustainability.

FAA Response: Concur. The FAA acknowledges that the disposal or lease of large,
complex or unusual parcels are worthy of careful consideration. Therefore, in
conjunction with the FAA’s review and redrafting of internal guidance on best practices
with regard to the valuation of closed and replaced airport property that necessarily
involves relatively large parcels (entire closed airports), the FAA is assessing its
practices. This guidance will address when to require a second appraisal for this kind of
large, complex and/or unusual disposal. FAA anticipates completing a draft of internal
guidance for review by February 28, 2012. Further, the FAA is considering adopting
standard procedures for related matters including a schedule for required appraisals,
establishment of a settlement date for transactions between the sponsor and itself, and a
standard memorandum of agreement to review the timeline for the appraisal, the transfer,
and for verified financial payments to the airport account.

However, for smaller transactions, such as the subject of the draft report, additional
scrutiny may prove difficult to justify on a cost/benefit basis. While the circumstances
surrounding the VNC are particularly unique, in light of its location near the beach, from
a system-wide perspective, FAA has in place the types of controls including on-site
financial reviews of commercial service airports that are sufficient to ensure that non-
airport use of airport property affords the airport fund FMV compensation in accord with


Appendix. Agency Comments
                                                                                          7


FAA policy. Based upon the available information, the type of situation at VNC is
insufficient, in and of itself, to justify any significant increase in oversight, or a
significant revision of policy considering finite airport oversight resources.

During the course of the audit, we met with the OIG audit team to convey our concerns
from a legal and programmatic basis. We appreciate the OIG’s consideration and
participation in those meetings and are grateful for those areas where these efforts helped
to achieve a consensus.




Appendix. Agency Comments
